CERTIFICATE OF COMPLIANCE
Case No. 20-1505
Caption: Zanib Merchant, et al. v. Alejandro
Mayorkas, et al.
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 2,601 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 4, 2021.

Nicole Garcia
Record Press, Inc.

Sworn to before me on
June 4, 2021
JASMINE WILLIAMS
Notary Public, State of New York
No. 01WI6397949
Qualified in Queens County
Commission Expires September 16, 2023

Notary Public

